TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Modernization and Information
                       Technology Services Organization’s
                      Competitive Sourcing Program Needs
                                 Improvement



                                        January 16, 2008

                              Reference Number: 2008-20-028




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               January 16, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Modernization and Information Technology
                              Services Organization’s Competitive Sourcing Program Needs
                              Improvement (Audit # 200720007)

 This report presents the results of our review to determine the effectiveness and efficiency of the
 Modernization and Information Technology Services (MITS) organization in supporting the
 competitive sourcing program and whether the competitive sourcing initiatives yielded positive
 and measurable results. This review was part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2007 Annual Audit Plan coverage.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) implemented a redesigned Campus Operations organization
 (a competitive sourcing initiative) as a result of winning a competition with private industry for
 its work.1 However, the redesigned Campus Operations organization is not fully complying with
 operational performance standards and actual costs and savings are not being determined and
 reported. As a result, the IRS cannot assure taxpayers that the redesigned Campus Operations
 organization efficiently uses resources and fully achieves the expected benefits and savings from
 the competition of its work.




 1
   The work performed by the Campus Operations organization includes print scheduling, print operations, file
 transmissions, data processing support, and magnetic media management at the 10 IRS Campus locations. See
 Appendix VII for a Glossary of Terms.
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement




Synopsis
The Competitive Sourcing Initiative is one of the five Governmentwide initiatives in the
President’s Management Agenda for improving the management and performance of the Federal
Government. The goal of this Initiative is to achieve efficient and effective competition between
public and private sources. The Office of Management and Budget (OMB) Circular Number
A-76, Performance of Commercial Activities (OMB A-76), dated May 2003, requires agencies to
identify commercial activities that are performed by Federal Government personnel and
determine which of the commercial activities are suitable for competition. Competitive sourcing
is the process for determining whether a commercial activity will be performed by a public or
private source. The IRS established the Office of Competitive Sourcing in the Agency-Wide
Shared Services organization with responsibility for IRS program policy, guidance, and
reporting.
On October 1, 2005, the IRS implemented a redesigned Campus
Operations organization as a result of winning a competition            The MITS organization
with private industry for its work. In addition to competing the    continues to identify initiatives
                                                                        to improve operational
work performed by the Campus Operations organization, the
                                                                       efficiency. However, the
MITS organization has implemented several internal                       redesigned Campus
improvement initiatives (e.g., Business Process Improvement            Operations organization’s
and Business Process Reengineering) as alternatives to              estimated and actual financial
competing commercial activities.                                       savings and nonfinancial
                                                                      benefits externally reported
The MITS organization Office of Strategic Sourcing effectively          were not supported by
served in an advisory and consulting role. The Government            documentation, performance
                                                                     standards were not met, and
Program Management Office prepared useful and detailed
                                                                        actual costs exceeded
reports on the results of its review of the redesigned Campus               estimated costs.
Operations organization’s compliance with the operational
performance standards. In addition, the Tax Processing
Operations Support Project Manager worked with IRS business
unit employees and the Campus Operations organization managers to resolve problems.
We also found that estimated and actual financial savings and nonfinancial benefits attributed to
the redesigned Campus Operations organization were reported externally, but the IRS did not
have the documentation to support the figures. In addition, the MITS organization had not
identified the savings and benefits and was unaware of the financial savings that were reported.
Estimated and actual costs for the redesigned Campus Operations organization were not
consistently reported by organizations within the MITS organization, although each organization
obtained the data from the Integrated Financial System. The reported estimated costs were also
not consistent with amounts presented in the Standard Competition Form (i.e., form documenting
all costs) or the Letter of Obligation (i.e., formal agreement). As a result, the IRS cannot

                                                                                                    2
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



accurately compute cost savings/overruns and other benefits and effectively evaluate compliance
with the Letter of Obligation.
The redesigned Campus Operations organization has not met the operational performance
standards and has exceeded the budget in the Letter of Obligation. The staff and cost estimates
related to the print work to be performed by the redesigned Campus Operations organization
were based on printing up to 11 files per campus. However, the IRS business units rejected the
proposal to reduce the number of printed files to 11 files per campus and required the continued
printing of more than 300 additional files not included in the Letter of Obligation. This
increased the workload and, consequently, increased operational costs.
Our review of the Government Program Management Office reports determined the number of
errors made by the redesigned Campus Operations organization employees had generally
declined, but the rate of noncompliance with operational performance standards shows minimal
improvement. In addition, our review of the actual costs received from the Chief Financial
Officer determined the redesigned Campus Operations organization exceeded the estimated costs
in the Letter of Obligation for Fiscal Year 2006 by $607,587 (11 percent). As a result of
continuing to print the more than 300 additional files, future fiscal year costs might exceed the
estimated costs in the Letter of Obligation.

Recommendations
The Chief Information Officer should ensure all MITS organizations consistently identify the
actual costs, determine the source for the estimated costs to be entered into the Integrated
Financial System, and assure consistent data pull for external reporting purposes; work with the
Chief, Agency-Wide Shared Services, to assign responsibility for comparing actual costs to the
baseline, the Standard Competition Form, and the Letter of Obligation; and work with the
Chief, Agency-Wide Shared Services, and the Chief Financial Officer to ensure the MITS
organization reviews the savings and benefits for accuracy and concurs with the information to
be reported externally. The Chief Information Officer should also provide additional training for
employees with unsatisfactory performance and/or take appropriate personnel actions to ensure
the redesigned Campus Operations organization complies with the performance standards;
continue to work with the business units to reduce the number of files printed and obtain
agreement on a schedule for converting the remaining print files to electronic files for online
viewing; work with the Director, Procurement, to determine what actions should be taken if the
performance standards continue to be unmet and/or the actual costs continue to exceed the
estimated costs in the Letter of Obligation; and ensure future Most Efficient Organization
proposals meet the IRS business units’ requirements by implementing suggestions from the
lessons learned document and obtain a requirements agreement from the customers.



                                                                                                   3
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement




Response
IRS management agreed with our recommendations. Planned corrective actions include
developing a process to ensure consistent and accurate identification of actual costs and
determination of the source of estimated costs to be entered into the Integrated Financial System;
establishing a distinct functional area code in the Integrated Financial System to monitor and
report costs; ensuring MITS organizations validate and compare financial data with the baseline,
the Standard Competition Form, and the Letter of Obligation; ensuring all appropriate offices
validate financial data using consistent criteria; developing and delivering a training curriculum
of basic and refresher courses to address the needs of all employees and/or taking appropriate
personnel actions; working with the business units using the Service Level Agreement to
categorize those files that demand hardcopy printouts and obtaining agreement on a plan and
schedule for converting the remaining print files to electronic files for online viewing;
developing a plan of required actions to address unmet performance standards and/or actual costs
exceeding estimated costs in the Letter of Obligation; and developing a repeatable process that
includes a Memorandum of Understanding with a requirements agreement from the affected
business units and suggestions from the Lessons Learned for the Modernization and Information
Technology Services Campus Operations A-76 Study. Management’s complete response to the
draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                 4
                        The Modernization and Information Technology Services
                    Organization’s Competitive Sourcing Program Needs Improvement




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernization and Information Technology Services Organization
          Continues to Identify and Support Initiatives to Improve Operational
          Efficiency......................................................................................................Page 3
          Identification and Reporting of Costs and Savings From the Redesigned
          Campus Operations Program Needs to Be Improved ...................................Page 4
                    Recommendations 1 through 3:.........................................Page 7

          The Redesigned Campus Operations Organization Has Not Met the
          Operational Performance Standards and Has Exceeded the Budget in
          the Letter of Obligation.................................................................................Page 8
                    Recommendations 4 through 7:.........................................Page 12


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Summary of the Redesigned Campus Operations
          Performance Results .....................................................................................Page 20
          Appendix VI – Modernization and Information Technology Services
          Organization’s Internal Improvement Initiatives..........................................Page 21
          Appendix VII – Glossary of Terms ..............................................................Page 23
          Appendix VIII – Management’s Response to the Draft Report ...................Page 27
           The Modernization and Information Technology Services
       Organization’s Competitive Sourcing Program Needs Improvement




                       Abbreviations

IRS              Internal Revenue Service
MITS             Modernization and Information Technology Services
OMB              Office of Management and Budget
                     The Modernization and Information Technology Services
                 Organization’s Competitive Sourcing Program Needs Improvement




                                            Background

The Competitive Sourcing Initiative is one of the five Governmentwide initiatives in the
President’s Management Agenda for improving the management and performance of the Federal
Government. The goal of this Initiative is to achieve efficient and effective competition between
public and private sources. The Office of Management and Budget (OMB) Circular Number
A-76, Performance of Commercial Activities (OMB A-76), dated May 2003, requires agencies to
identify commercial activities1 that are performed by Federal Government personnel and
determine which of the commercial activities are suitable for competition. Competitive sourcing
is the process for determining whether a commercial activity will be performed by a public or
private source. The Internal Revenue Service (IRS) established the Office of Competitive
Sourcing in the Agency-Wide Shared Services organization with responsibility for IRS program
policy, guidance, and reporting.
The IRS implemented a redesigned Campus Operations organization (known as the Integrated
Document Solutions Enterprise Most Efficient Organization) on October 1, 2005, as a result of
winning a competition with private industry for its work.2 The Modernization and Information
Technology Services (MITS) organization established the
MITS Office of Strategic Sourcing (merged into the                Competitive sourcing is the
Strategic Planning and Performance Management Division               process for determining
on February 25, 2007) to monitor performance of its              whether  a commercial activity
OMB A-76 competitive sourcing projects, provide support         will be performed  by a public or
                                                                         private source.
to internal improvement initiatives, and work on ad hoc
assignments in support of the Office of Competitive
Sourcing and the Chief Information Officer. The
Government Program Management Office was established to perform quality assurance
surveillance of the MITS organization competitive sourcing projects. The redesigned Campus
Operations organization is located in the Tax Processing Operations Support function under the
MITS organization End User Equipment and Services organization. Figure 1 presents an
organization chart of functions overseeing the redesigned Campus Operations organization.




1
  See Appendix VII for a Glossary of Terms.
2
  The work performed by the Campus Operations organization includes print scheduling, print operations, file
transmissions, data processing support, and magnetic media management at the 10 IRS Campus locations.
                                                                                                           Page 1
                    The Modernization and Information Technology Services
                Organization’s Competitive Sourcing Program Needs Improvement



     Figure 1: Oversight of the Redesigned Campus Operations Organization




   Source: IRS organization charts from the IRS web site as of August 15, 2007.

This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Competitive Sourcing and MITS organization offices in New Carrollton, Maryland, and
Memphis, Tennessee, during the period January through September 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. This review was part of the Treasury Inspector General for Tax
Administration Fiscal Year 2007 Annual Audit Plan coverage under the major management
challenge of Using Performance and Financial Information for Program and Budget Decisions.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.



                                                                                           Page 2
                     The Modernization and Information Technology Services
                 Organization’s Competitive Sourcing Program Needs Improvement




                                       Results of Review

The Modernization and Information Technology Services Organization
Continues to Identify and Support Initiatives to Improve Operational
Efficiency
OMB A-76 establishes Federal policy and requires agencies to identify commercial activities that
are performed by Federal Government personnel and determine which of the commercial
activities are suitable for competition. To hold agencies accountable for competition results, the
following activities must be performed:
    •    Monitor performance for all performance periods stated in the solicitation.
    •    Implement the quality assurance surveillance plan.
    •    Retain the solicitation and any other documentation from the streamlined or standard
         competition as part of the competition file.
    •    Maintain the currency of the contract file, consistent with the Federal Acquisition
         Regulation.
    •    Record the actual cost of performance by performance period.
    •    Monitor, collect, and report performance information so it will be available for
         performance evaluation purposes in a follow-on streamlined or standard competition.
         Also, the agency shall compare the actual costs to the costs recorded on the Standard
         Competition Form when the performance decision was made.
The Clinger-Cohen Act of 19963 states the Chief Information Officer is responsible for
promoting the effective and efficient design and operation of all major information resources
management processes for the executive agency.
As part of the MITS Improvement Strategy and Plan, the MITS organization identified the
Campus Operations area for competitive sourcing under the OMB A-76 process. Campus
Operations is the only MITS organization commercial activity competed under the OMB A-76
competitive sourcing process. On August 5, 2004, the IRS awarded a Letter of Obligation


3
 Federal Acquisition Reform Act of 1996 (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 3
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



(i.e., formal agreement), and the redesigned Campus Operations organization was fully
operational on October 1, 2005. In addition, the MITS organization prepared a lessons learned
document of items to be considered during future competitions. Examples of the lessons learned
were to:
   •   Ensure the proposal meets business units’ requirements.
   •   Ensure the accuracy of new employee Position Descriptions and grade levels.
   •   Never underestimate the impact or length of time needed to implement new technological
       solutions.
In addition to competing the work performed by the Campus Operations organization and as part
of the MITS Improvement Strategy and Plan, the MITS organization has implemented internal
improvement initiatives (e.g., Business Process Improvement, Business Process Reengineering,
and Competency Based Organization) as alternatives to competing commercial activities. We
did not review the internal improvement initiatives indepth because the initiatives are currently
under development and have not reported measurable results, or the initiatives will be considered
in another audit. Appendix VI provides a brief discussion of the MITS organization internal
improvement initiatives.
MITS organization Office of Strategic Sourcing personnel
effectively served in advisory and consulting roles as                The MITS organization
                                                                    identified several areas for
facilitators, coordinators, initiative progress monitors, and
                                                                 internal improvement initiatives
resource points of contact for the internal improvement             and the Office of Strategic
initiatives.                                                      Sourcing personnel effectively
                                                                      served in advisory and
The Government Program Management Office prepared                        consulting roles.
useful and detailed reports on the results of its review of the
redesigned Campus Operations organization compliance
with the operational performance standards. In addition, the Tax Processing Operations Support
Project Manager worked with IRS business unit employees and the Campus Operations
organization managers to resolve problems.

Identification and Reporting of Costs and Savings From the
Redesigned Campus Operations Program Needs to Be Improved
OMB A-76 states that the Competitive Sourcing Official shall identify savings resulting from
completed streamlined and standard competitions in accordance with OMB Circular
Number A-11, Preparation, Submission, and Execution of the Budget, dated June 2006. As
stated previously, agencies are responsible for performing post-competition accountability
activities. Also, an activity’s baseline costs are the costs as performed by the incumbent service
provider and are compared to actual costs to compute savings.

                                                                                            Page 4
                        The Modernization and Information Technology Services
                    Organization’s Competitive Sourcing Program Needs Improvement



The Consolidated Appropriations Act of 2004 Section 647(b)4 (hereafter, referred to as the
Competitive Sourcing Annual Report) requires the head of each executive agency to annually
submit to Congress a report on competitive sourcing activities not later than December 31. The
report should contain nine items, including the total number of the Federal employees (expressed
as Full-Time Equivalents) studied under completed competitions; the incremental cost directly
attributable to conducting the competitions, including costs attributable to paying outside
consultants and contractors; an estimate of the total anticipated savings, or a quantifiable
description of improvements in service or performance, derived from completed competitions;
and actual savings, or a quantifiable description of improvements in service or performance,
derived from the implementation of competitions completed after May 29, 2003. The OMB
requires agencies to use the Competitive Sourcing Activities Worksheet to report financial and
nonfinancial benefits information required by the Competitive Sourcing Annual Report
requirements.
The Federal Managers’ Financial Integrity Act of 19825                The estimated and actual
requires that revenues and expenditures applicable to agency            financial savings and
operations be properly recorded and accounted for to permit         nonfinancial benefits reported
                                                                      to Congress and the OMB
the preparation of accounts and reliable financial and
                                                                        were not supported by
statistical reports and to maintain accountability over the           documentation, and costs
assets.                                                                 were not consistently
                                                                    reported. As a result, the IRS
Our review of the Competitive Sourcing Activities                    cannot accurately compute
Worksheets and supporting documentation for Fiscal                   cost savings/overruns and
Years 2005 and 2006 determined the estimated and actual             other benefits and effectively
financial savings and nonfinancial benefits attributed to the       evaluate compliance with the
                                                                         Letter of Obligation.
redesigned Campus Operations organization have been
reported externally, but the IRS did not have documentation
to support the following items:
       •   A decrease of 100 million printed pages for Fiscal Year 2006 reported in the OMB
           Report on Competitive Sourcing Results Fiscal Year 2006.
       •   Expected cost savings of $2,472,000 from the redesigned Campus Operations
           organization in Fiscal Year 2007 reported in IRS Fiscal Year 2007 Congressional Budget
           Submission.
       •   Estimated savings of $75 million ($15 million per year for 5 years) reported on the Fiscal
           Years 2005 and 2006 worksheets prepared in compliance with the Competitive Sourcing
           Activity Annual Report requirements.



4
    Pub. L. No. 108–199, 118 Stat. 3, Section 647(b) (2004).
5
    31 U.S.C. Sections 1105, 1113, 3512 (2000).
                                                                                              Page 5
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



Therefore, we were unable to verify the reliability of the cost/benefit information attributed to
the redesigned Campus Operations organization and reported externally (see Appendix IV).
While the savings and benefits were attributed to the redesigned Campus Operations
organization, the MITS organization had not identified and was unaware of the reported financial
savings and benefits.
Our review of the estimated and actual costs for the redesigned Campus Operations organization
determined the costs were not consistently reported by the MITS and Chief Financial Officer
organizations. For example:
   •   The MITS organization End User Equipment and Services Strategic Planning and
       Finance organization reported $1,047,994 as actual costs for Fiscal Year 2005, but the
       Chief Financial Officer organization reported $15,279,659.
   •   The Tax Processing Operations Support organization reported the Fiscal Year 2006
       budget as $7,853,528, but the Chief Financial Officer organization reported $5,752,125
       and the Letter of Obligation shows $5,699,063.
The deficiencies above occurred because there are no policies and procedures in place that
require the MITS organization to:
   •   Identify the cost savings and benefits that the redesigned Campus Operations
       organization is expected to achieve.
   •   Provide the data needed by the Office of Competitive Sourcing to compute cost savings
       and other benefits for reporting to the OMB.
   •   Verify the cost savings and benefits that will be reported outside of the IRS.
   •   Compare the actual costs to the estimated costs.
Without consistent and supported performance and financial data, the IRS cannot accurately
compute cost savings/overruns and other benefits, effectively evaluate the redesigned Campus
Operations organization’s compliance with the Letter of Obligation, or make fully informed
decisions regarding funding and the extension of option years.
To address the inconsistency in the reporting of the redesigned Campus Operations organization
costs, the IRS decided the Chief Financial Officer organization will work with the MITS
organization and the Office of Competitive Sourcing to collect the data needed to determine cost
savings that will be reported externally.
In addition, on April 13, 2007, the OMB required agencies to perform validations that should, at
a minimum (1) assess the completeness and accuracy of cost and performance data and
(2) evaluate the effectiveness of post-competition management actions. This should be
completed by September 2008. The Office of Program Evaluation and Risk Analysis will
perform this validation for the IRS.

                                                                                             Page 6
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



Recommendations
The Chief Information Officer should:
Recommendation 1: Ensure all MITS organizations consistently identify the actual costs,
determine the source for the estimated costs to be entered into the Integrated Financial System
(i.e., should they come from the Standard Competition Form, Letter of Obligation, modifications
to the Letter of Obligation, or some other source), and notify the Chief, Agency-Wide Shared
Services, and the Chief Financial Officer of the input into the Integrated Financial System to
assure consistent data pull for external reporting purposes.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a process to ensure consistent and accurate identification of actual costs and
       determination of the source of estimated costs to be entered into the Integrated Financial
       System. For external reporting purposes and to assure consistent data pulls, the Director,
       Financial Management Services, will establish a distinct functional area code in the
       Integrated Financial System to monitor and report costs associated with Competitive
       Sourcing initiatives and instruct the MITS and Chief Financial Officer organizations and
       the Office of Competitive Sourcing on its use.
Recommendation 2: Work with the Chief, Agency-Wide Shared Services, to assign
responsibility for comparing actual costs to the baseline, the Standard Competition Form, and the
Letter of Obligation to determine whether estimated savings are realized and actual costs
exceeded estimated costs.
       Management’s Response: IRS management agreed with this recommendation and
       will ensure each MITS organization office validates the financial data and conducts
       comparisons with the baseline, the Standard Competition Form, and the Letter of
       Obligation. To ensure a comprehensive review process, management will examine
       policies and procedures to ensure all MITS organization offices validate financial data
       using consistent criteria.
Recommendation 3: Work with the Chief, Agency-Wide Shared Services and the Chief
Financial Officer to ensure the MITS organization reviews the savings and benefits for accuracy
and concurs with the information to be reported externally.
       Management’s Response: IRS management agreed with this recommendation and
       will review policies and procedures and make any necessary adjustments to ensure all
       appropriate offices validate financial data using consistent criteria.




                                                                                           Page 7
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



The Redesigned Campus Operations Organization Has Not Met the
Operational Performance Standards and Has Exceeded the Budget in
the Letter of Obligation
OMB Circular Number A-123, Management Accountability and Control, dated June 21, 1995,
states that controls are the organization, policies, and procedures used to reasonably ensure
(1) programs achieve their intended results; (2) resources are used consistent with agency
mission; (3) programs and resources are protected from waste, fraud, and mismanagement;
(4) laws and regulations are followed; and (5) reliable and timely information is obtained,
maintained, reported, and used for decision making.
The Associate Chief Information Officer, End User Equipment and Services, is responsible for
the redesigned Campus Operations organization implementation and performance of work under
the Letter of Obligation. These responsibilities include ensuring:
   •   All work satisfies the quality and timeliness standards.
   •   Compliance with the funding limitations projected for the delivery of services.
   •   Proposed costs are recorded in the appropriate budget documents.
OMB A-76 states that the Contracting Officer is responsible for notifying a service provider of
poor performance and determining whether the service provider has failed to the extent that a
termination is justified. The Letter of Obligation states that the Contracting Officer’s Technical
Representative is responsible for conducting inspections of the work performed by the service
provider to ensure compliance with the terms and conditions of the Letter of Obligation.
The Quality Assurance Surveillance Plan states that the Government Program Management
Office performs surveillance activities to determine
whether the redesigned Campus Operations organization
work is satisfactory and is meeting 30 performance             The number of performance
                                                              errors has generally declined,
standards established in the Letter of Obligation. The       but the rate of compliance with
Government Program Management Office uses four types             operational performance
of surveillance methods to identify errors and evaluate the     standards shows minimal
work of the redesigned Campus Operations organization:        improvement. Also, in Fiscal
(1) Planned Sampling, (2) Random Sampling,                        Year 2006 actual costs
                                                              exceeded the estimated costs
(3) 100 percent Inspection, and (4) Customer Complaints.      and there is an increased risk
The method selected to review the work is based on             that future costs will exceed
several factors such as population size, relative work             the estimated costs.
importance, service times, and remote or onsite
surveillance.
IRS management stated that prior to implementing the redesigned Campus Operations
organization approximately 1,100 files were printed. The staff and cost estimates related to the

                                                                                            Page 8
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



print work to be performed by the redesigned Campus Operations organization were based on
printing up to 11 files per campus. The IRS business units rejected the redesigned Campus
Operations organization proposal to reduce the number of printed files to 11 files per campus.
Therefore, the redesigned Campus Operations organization had to continue printing more than
300 additional files not included in the Letter of Obligation. This increased the workload and,
consequently, presented performance problems and increased operational costs.
Our review of the Government Program Management Office reports determined the number of
errors made by the redesigned Campus Operations organization employees had generally
declined during Fiscal Years 2006 and 2007 (through the 3rd Quarter). Over the last 7 fiscal year
quarters, 63 percent of the errors occurred at the Cincinnati and Kansas City Campuses and the
Quality Support Center. Figure 2 provides a summary of the performance errors. For the
purposes of this report, the total population was determined by combining the number of items
that could be reviewed under each of the surveillance methods. However, due to several
surveillance methods being used and some items being reviewed more than once (i.e., to assess
multiple performance standards), the total population and the number of errors cannot be used to
calculate an overall error rate, because it would not reflect the true results of the various
surveillance methods.




                                                                                           Page 9
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



               Figure 2: Summary of the Redesigned Campus Operations
                                Performance Errors
                                                                        Number and Percentage of
                                Total Population    Number of Errors    Errors at the Cincinnati and
                                                                        Kansas City Campuses and
                                                                        the Quality Support Center
                                          Fiscal Year 2006

 1st Quarter                        170,955               1,108                 772 (70%)

 2nd Quarter                        181,736                  650                335 (52%)

 3rd Quarter                        196,864                  481                233 (48%)

 4th Quarter                        182,279                  931                533 (57%)

 Fiscal Year 2006 Totals            731,834               3,170                1,873 (59%)
                                          Fiscal Year 2007

 1st Quarter                        178,531                  560                422 (75%)

 2nd Quarter                        174,986                  613                468 (76%)

 3rd Quarter                        176,550                  292                160 (55%)

 Fiscal Year 2007 Totals
                                    530,067               1,465                1,050 (72%)
 (through 3rd Quarter)
                           Fiscal Years 2006 and 2007 (through 3rd Quarter)
 Fiscal Years 2006 and
 2007 (through                   1,261,901                4,635                2,923 (63%)
 3rd Quarter) Totals
Source: Government Program Management Office.

While the number of performance errors has generally declined, the rate of compliance with
operational performance standards shows minimal improvement. In Fiscal Year 2006, the
redesigned Campus Operations organization passed 52 percent and failed 48 percent of the
operational performance standards. For the 3 quarters of Fiscal Year 2007
(October 2006 – June 2007), the redesigned Campus Operations organization passed 56 percent
and failed 44 percent of the operational performance standards. Although there was some
improvement, in our opinion the pass rate is not an indication of satisfactory performance.
Appendix V presents a summary of the performance results.



                                                                                             Page 10
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



IRS management stated that the unsatisfactory performance was due to insufficient staffing,
inadequately trained staff, and hardware problems. To improve performance, the redesigned
Campus Operations organization Project Manager implemented a managerial review process that
involves meeting with the employees to discuss the errors they made and how to avoid repeating
them.
In our opinion, performance problems also occurred because the IRS incorrectly assumed the
redesigned Campus Operations organization positions would be filled with incumbent employees
who had the skills needed to perform the work. In addition, the IRS shared with the business
unit representatives that the redesigned Campus Operations organization solution would provide
online delivery of data in lieu of printed material but did not share the magnitude of cuts being
considered (i.e., the reduction to 11 print files at each campus). Due to the business units’
rejection of the solution, the redesigned Campus Operations organization had to print
significantly more files than originally planned. The additional workload contributed to
performance problems such as untimely printing and/or delivery of printed reports.
Our review of the actual costs received from the Chief Financial Officer organization determined
that the redesigned Campus Operations organization exceeded the estimated costs in the Letter of
Obligation and the Standard Competition Form for Fiscal Year 2006 by $607,587 (11 percent).
Some of the cost overruns were attributed to personnel and supplies expenditures. The cost
overruns occurred because the redesigned Campus Operations organization was required to print
the 300 additional files. In addition, the cost overruns would have been higher if the redesigned
Campus Operations organization had not planned for additional expenditures (i.e., to print more
than the planned 11 files) due to a gradual migration from the approximately 1,100 printed files
to online viewing during Fiscal Year 2006. However, the costs of continuing to print the
additional 300 files are not included in the estimated future costs, which increases the risk that
the redesigned Campus Operations organization will continue to incur cost overruns if the
number of printed reports are not reduced to the 11 files per campus.
The redesigned Campus Operations organization has taken action to further reduce the number
of printed files by surveying and meeting with the business units to identify files that will no
longer require printing. Once an agreement is reached on the files that will be printed, a new
service level agreement will include this information.
Without adequate and sufficiently trained staff, redesigning the Campus Operations organization
to fully meet the operational performance standards will be difficult. Also, continuing to print
more than 300 additional files increases the risk that future fiscal year costs will exceed the
estimated costs in the Letter of Obligation.




                                                                                          Page 11
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



Recommendations
The Chief Information Officer should:
Recommendation 4: Provide additional training for employees with unsatisfactory
performance and/or take appropriate personnel actions to ensure the redesigned Campus
Operations organization complies with the performance standards in the Letter of Obligation.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a standard training curriculum of basic and refresher courses that will
       address the needs of all employees, including needs-based corrective training for those
       employees who receive unsatisfactory performance evaluations. Management will also
       deliver the appropriate training based on a needs assessment to train new employees,
       develop skills, and address skills deficiencies and/or take appropriate personnel actions.
Recommendation 5: Continue to work with the business units to reduce the number of files
printed and obtain agreement on a schedule for converting the remaining print files to electronic
files for online viewing to ensure the redesigned Campus Operations organization actual costs
are within the Letter of Obligation and Standard Competition Form cost estimates.
       Management’s Response: IRS management agreed with this recommendation and
       will continue to work with the business units using the Service Level Agreement to
       categorize those files that demand hardcopy printouts. Management will meet with the
       business units to obtain agreement on a plan and schedule for converting the remaining
       print files to electronic files for online viewing.
Recommendation 6: Work with the Director, Procurement, to determine what actions should
be taken (e.g., recompeting the redesigned Campus Operations organization work), if the
performance standards continue to be unmet and/or the actual costs continue to exceed the
estimated costs in the Letter of Obligation.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a plan of required actions to address unmet performance standards and/or
       actual costs exceeding estimated costs in the Letter of Obligation.
Recommendation 7: Ensure future Most Efficient Organization proposals meet the IRS
business units’ requirements by implementing suggestions from the lessons learned document
and obtain a requirements agreement from the customers.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a repeatable process that includes a Memorandum of Understanding with a
       requirements agreement from the affected business units. Management will consider
       suggestions from the Lessons Learned for the Modernization and Information
       Technology Services Campus Operations A-76 Study as they develop the process.


                                                                                           Page 12
                       The Modernization and Information Technology Services
                   Organization’s Competitive Sourcing Program Needs Improvement



                                                                                     Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine the effectiveness and efficiency of the
MITS organization in supporting the competitive sourcing program and determine whether the
competitive sourcing initiatives yielded positive and measurable results. To accomplish our
objectives, we:
I.         Evaluated the effectiveness and efficiency of the MITS organization Office of Strategic
           Sourcing in supporting and monitoring OMB Circular Number A-76, Performance of
           Commercial Activities (OMB A-76), dated May 2003, and alternative OMB A-76
           initiatives.
           A. Reviewed the policies and procedures for competitive sourcing governing monitoring,
              tracking, and reporting progress, performance, and costs. We interviewed IRS
              personnel and compared IRS procedures to OMB A-76 requirements and other
              guidance. We also determined whether the roles and responsibilities of the MITS
              organization Office of Strategic Sourcing personnel changed when the organization
              merged into the Strategic Planning and Performance Management Division.
           B. Interviewed MITS organization Office of Strategic Sourcing personnel to determine
              the process to ensure MITS organization alternative OMB A-76 initiatives achieve
              High Performing Organization1 status. We also interviewed IRS personnel to
              determine the status of the initiatives and the value of the support provided by
              MITS organization Office of Strategic Sourcing personnel. We also determined
              whether there was any duplication of duties between the Office of Competitive
              Sourcing and the MITS organization Office of Strategic Sourcing.
           C. Determined whether the Government Program Management Office effectively and
              efficiently monitored the redesigned Campus Operations organization and reported
              the results. We reviewed the Quality Assurance Surveillance Plan, the performance
              standards in the Letter of Obligation, monthly and quarterly surveillance reports,
              surveys, logs, checklists, and meeting minutes.
           D. Researched to identify competitive sourcing best practices and lessons learned from
              other Department of the Treasury bureaus and Federal Government agencies.




1
    See Appendix VII for a Glossary of Terms.
                                                                                            Page 13
                       The Modernization and Information Technology Services
                   Organization’s Competitive Sourcing Program Needs Improvement



II.       Assessed the effectiveness of the redesigned Campus Operations organization
          implementation.
          A. Compared the Letter of Obligation’s estimated costs and print volume to the actual
             redesigned Campus Operations organization’s costs and print volume and to the
             former Campus Operations organization costs and print volume.
          B. Determined the redesigned Campus Operations organization effectiveness in
             monitoring implementation progress, performance, and costs. We reviewed problem
             reports and budget reports. We also met with management to determine how risks are
             tracked, why problems are recurring, and the actions taken to reconcile the identified
             cost discrepancies.
          C. Interviewed Office of Procurement personnel to determine their process to monitor
             and enforce the redesigned Campus Operations organization Letter of Obligation and
             how cost overruns, savings, and benefits were computed and reported.
III.      Reviewed the identification and reporting of measurable results for the redesigned
          Campus Operations organization and alternative OMB A-76 initiatives.
          A. Interviewed appropriate personnel and reviewed documents to determine what
             benefits and savings were reported and to whom the information was submitted.
          B. Determined how the benefits and savings were computed and identified.
          C. Validated the reported savings and benefits from the implemented initiatives.
IV.       Validated data used.
          A. Used the Treasury Integrated Management Information System, which has IRS
             personnel and payroll data, to determine the current number of redesigned Campus
             Operations organization employees. We obtained the data from the Treasury
             Inspector General for Tax Administration Data Center Warehouse. Treasury
             Inspector General for Tax Administration Office of Information Technology
             validated the data using run-to-run balancing. We also validated the data by
             comparing a sample of employee records to the data in the IRS employee directory
             and found the Treasury Integrated Management Information System data to be
             sufficiently reliable.
          B. Obtained data from the Integrated Financial System for Fiscal Years 2005 and 2006
             regarding the redesigned Campus Operations organization costs. We relied on the
             Government Accountability Office’s assessment of the reliability of the
             computer-processed data from the Integrated Financial System. During a review of
             the IRS’ financial statements,2 the Government Accountability Office concluded the

2
    Financial Audit: IRS’s Fiscal Years 2006 and 2005 Financial Statements (GAO-07-136, dated November 2006).
                                                                                                      Page 14
       The Modernization and Information Technology Services
   Organization’s Competitive Sourcing Program Needs Improvement



expense and reimbursable revenue information processed through the Integrated
Financial System for Fiscal Years 2005 and 2006 was reliable in all material respects.




                                                                              Page 15
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary Hinkle, Director
Danny Verneuille, Audit Manager
Tina Wong, Lead Auditor
Paul Mitchell, Senior Auditor
Olivia DeBerry, Auditor
Linda Screws, Auditor




                                                                                     Page 16
                 The Modernization and Information Technology Services
             Organization’s Competitive Sourcing Program Needs Improvement



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Deputy Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Associate Chief Information Officer, Management OS:CIO:M
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
       Associate Chief Information Officer, Enterprise Networks OS:CIO:EN
       Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
       Associate Chief Information Officer, Management OS:CIO:M
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 17
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



                                                                                   Appendix IV


                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 100 million printed pages (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS reported to the OMB “. . . in-house printing needs for tax-related data and processing
was reduced by almost 100 million pages (25 percent) in 1 year through improvements to on-line
viewing capabilities.” The OMB reported this in its Report on Competitive Sourcing Results
Fiscal Year 2006. We requested documentation from the IRS to support the actual print
reduction but the IRS was unable to provide it. Thus, we were unable to validate the print
reduction.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $75 million savings ($15 million per year for 5 years)
    (see page 4).

Methodology Used to Measure the Reported Benefit:
Competitive Sourcing Annual Report guidance requires agencies to annually prepare and submit
to Congress a report on their competitive sourcing activities by December 31. Examples of
information required by the Competitive Sourcing Annual Report are the total number of the
Federal employees studied under completed competitions; an estimate of the total anticipated
savings, or a quantifiable description of improvements in service or performance, derived from
completed competitions; and actual savings, or a quantifiable description of improvements in
service or performance, derived from the implementation of competitions completed after May
29, 2003. Agencies are required to use the Competitive Sourcing Activities Worksheet to report
Competitive Sourcing Annual Report information.
On the Fiscal Years 2005 and 2006 Competitive Sourcing Activities Worksheets, the IRS
reported an estimated savings of $75 million ($15 million per year for 5 years). We interviewed
IRS personnel from several functions and requested documentation to support the estimated
                                                                                          Page 18
                       The Modernization and Information Technology Services
                   Organization’s Competitive Sourcing Program Needs Improvement



savings. However, the IRS was unable to provide any documentation or explanations on how the
estimated savings were determined. Thus, we were unable to validate the estimated savings.

Type and Value of Outcome Measure:
•     Reliability of Information – Actual; $2,472,000 (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS Fiscal Year 2007 Congressional Budget Submission reported expected cost savings of
$2,472,000 from the redesigned Campus1 Operations organization in Fiscal Year 2007. The IRS
explained how it obtained the information used to compute the estimated savings. However, it
was unable to provide the documentation. As a result, we were unable to validate the $2,472,000
expected cost savings.




1
    See Appendix VII for a Glossary of Terms.
                                                                                       Page 19
                       The Modernization and Information Technology Services
                   Organization’s Competitive Sourcing Program Needs Improvement



                                                                                                  Appendix V

      Summary of the Redesigned Campus Operations
                  Performance Results

                                                              Number and
                              Number of Standards                                    Number and Percentage
                                                             Percentage of
                                 Evaluated(a)                                         of Standards Failed(b)
                                                           Standards Passed

                                                 Fiscal Year 2006

    1st Quarter                          96                      49 (51%)                     47 (49%)

    2nd Quarter                          90                      42 (47%)                     48 (53%)

    3rd Quarter                          87                      51 (59%)                     36 (41%)

    4th Quarter                          87                      47 (54%)                     40 (46%)

    Fiscal Year 2006                     360                    189 (52%)                    171 (48%)
    Totals
                                                 Fiscal Year 2007

    1st Quarter                          88                      48 (55%)                     40 (45%)

    2nd Quarter                          87                      44 (51%)                     43 (49%)

    3rd Quarter                          87                      54 (62%)                     33 (38%)

    Fiscal Year 2007
    Totals (through                      262                    146 (56%)                    116 (44%)
    3rd Quarter)
                              Fiscal Years 2006 and 2007 (through 3rd Quarter)
 Fiscal Years 2006
 and 2007 (through              622                             335 (54%)                    287 (46%)
 3rd Quarter) Totals
Source: Government Program Management Office.
a
    The standards are documented in the Letter of Obligation.
b
    The pass/fail determination of a standard is based on the combined error rates from the 10 campuses and the
     Quality Support Center for that standard.




                                                                                                           Page 20
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



                                                                                 Appendix VI

 Modernization and Information Technology Services
   Organization’s Internal Improvement Initiatives

End User Equipment and Services Organization
The End User Equipment and Services organization Seat Management activity to provide
computers and computer support to IRS employees was originally selected for the OMB A-76
competitive sourcing process and publicly announced in December 2002. However, in
November 2006, the IRS requested OMB approval to remove the Seat Management activity from
OMB A-76 competition to pursue alternative approaches. The OMB asked the IRS to provide
additional detail on Seat Management work functions that might be conducive to Business
Process Reengineering/Improvement, private-private competition, and public-private
competition. By December 2006, the Seat Management activity was removed from the OMB
A-76 competitive sourcing process and was converted to a Business Process Reengineering
effort. In July 2007, the Business Process Reengineering staff and MITS organization Senior
Leaders met to develop and review a detailed governance process to ensure the success of this
effort.
Enterprise Networks Organization
The Enterprise Networks organization is conducting a Business Process Improvement initiative
and pursuing High Performing Organization status. The Enterprise Networks organization is
responsible for providing all forms of electronic communications (e.g., voice, data, video, and
wireless) in support of the current production environment and future business initiatives. To
achieve High Performing Organization status, the Business Process Improvement Program was
structured around nine major initiatives. The first initiative, Service Definitions, was completed
by creating the Enterprise Networks Telecommunications Services Catalog (draft). This baseline
of service information will be used to further define and develop the identified services as they
relate to each of the nine major initiatives.
Applications Development Organization
The Applications Development organization is conducting a Business Process Improvement
initiative and established a formal Program Office. Improvement subteams were formed to meet
the Applications Development organization Business Process Improvement goal to increase
productivity by 20 percent. For example, one of the subteams will focus on developing a
framework for ongoing process improvement in areas such as project planning and project
monitoring and control. Another team will define, document, and implement a process to collect
and analyze measures that will be used to manage and improve organizational performance.

                                                                                          Page 21
                   The Modernization and Information Technology Services
               Organization’s Competitive Sourcing Program Needs Improvement



Applications Development organization functions include the labor required to develop new
applications or enhancements to existing applications that take more than 2 staff weeks to
complete.
Enterprise Operations Organization
The Enterprise Operations organization restructured its Data Center Operations
(i.e., Computing Centers) into a Competency-Based Organization. The Competency-Based
Organization initiative features a mission-focused grouping of related skills, knowledge, and
functions working together across the IRS in a standard manner by the most efficient and
effective means possible. Specifically, the initiative focuses investment in consolidation of
application servers and on process improvement at the three IRS Computing Centers. The
Enterprise Operations organization is responsible for providing efficient, cost effective, secure,
and highly reliable computing services for all IRS business entities and taxpayers and for
managing the day-to-day operations of the network and contact center environments.




                                                                                            Page 22
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement



                                                                              Appendix VII

                              Glossary of Terms

           Term                                           Definition
Business Process               The process for developing and implementing incremental
Improvement                    improvements for a process.
Business Process               The fundamental rethinking and radical redesign of business
Reengineering                  processes to achieve dramatic improvements in critical,
                               contemporary measures of performance, such as cost, quality,
                               service, and speed.
Campus                         The data processing arm of the IRS. Campuses process paper
                               and electronic submissions, correct errors, and forward data to
                               the Computing Centers for analysis and posting to taxpayer
                               accounts.
Commercial Activity            A recurring service that could be performed by the private
                               sector.
Competency Based               An organization with a mission-focused grouping of related
Organization                   skills, knowledge, and functions working together across the
                               enterprise in a standard manner to accomplish common
                               objectives by the most efficient and effective means possible.
Competition                    A formal evaluation of sources to provide a commercial activity
                               that uses pre-established rules (e.g., the Federal Acquisition
                               Regulation, and OMB A-76). Under OMB A-76, agencies
                               must use streamlined or standard competition to determine
                               whether Federal Government personnel should perform a
                               commercial activity.
Competitive Sourcing Official An inherently Governmental agency official responsible for the
                              implementation of OMB A-76 within the agency. For the IRS,
                              the competitive sourcing official is the Director, Office of
                              Competitive Sourcing.
Computing Center               Supports tax processing and information management through a
                               data processing and telecommunications infrastructure.



                                                                                        Page 23
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement




            Term                                        Definition
Contact Center Environment    The hardware, software, and communications infrastructure that
                              enables the business units to meet the IRS’ desired customer
                              service levels.
Contracting Officer’s         Furnishes technical direction, monitors contract performance,
Technical Representative      and maintains an arm’s-length relationship with the contractor.
Customer Complaint            Complaints made by the customer, which if validated, may be
                              used by the Government for the purpose of assessing the quality
                              assurance of the redesigned Campus Operations organization.
Data Center Warehouse         A database containing the most highly used IRS information.
Full-Time Equivalent          A measure of labor hours in which 1 full-time equivalent is
                              equal to 8 hours multiplied by the number of compensable days
                              in a particular fiscal year. For Fiscal Years 2006 and 2007,
                              1 full-time equivalent was equal to 2,080 staff hours.
Government Program            The organization that determines whether the redesigned
Management Office             Campus Operations organization’s performance complies with
                              the standards in the Letter of Obligation.
High Performing               An organization within a Federal agency that performs
Organization                  commercial activities and whose cost efficiency and
                              performance meet or exceed that of comparable providers,
                              whether public or private.
Integrated Financial System   The system that is intended to address administrative financial
                              management weaknesses. The first release of the Integrated
                              Financial System will include the Accounts Payable, Accounts
                              Receivable, General Ledger, Budget Execution, Cost
                              Management, and Financial Reporting activities. A future
                              Integrated Financial System release will be needed to fully
                              resolve all administrative financial management weaknesses.
Letter of Obligation          A formal agreement that an agency implements when a
                              standard or streamlined competition results in agency
                              performance of the competed work (e.g., Most Efficient
                              Organization).
Most Efficient Organization   The staffing plan of the agency, developed to represent the
                              agency’s most efficient and cost-effective organization.



                                                                                       Page 24
                  The Modernization and Information Technology Services
              Organization’s Competitive Sourcing Program Needs Improvement




             Term                                       Definition
One Hundred Percent (100%)   An evaluation method that requires complete inspection of a
Inspection                   Letter of Obligation requirement.
Onsite Surveillance          An onsite visit at the 10 IRS campus locations performed by the
                             Quality Assurance Evaluators to verify each site’s conformance
                             with applicable performance standards.
Performance Standard         A results-oriented measure that describes the level of
                             performance expected for a particular job element. It describes
                             what the redesigned Campus Operations organization is
                             expected to produce in such dimensions as quality and
                             timeliness. For example: 1) resolve problem tickets in
                             accordance with the Internal Revenue Manual and 2) begin
                             93.5 percent of customer requested reprints no later than
                             2 hours after the request and 100 percent no later than
                             1 business day after the request.
Planned Sampling             Surveillance based on the evaluation of tasks selected on other
                             than a 100 percent or random basis. It may be appropriate for
                             tasks that occur infrequently and where 100 percent inspection
                             is neither required nor practicable. A predetermined plan for
                             inspecting part of the work is established using subjective
                             judgment and analysis of agency resources to decide what work
                             to inspect and how frequently to inspect it.
Quality Support Center       The organization responsible for monitoring performance at all
                             campuses, analyzing data from internal quality inspections,
                             initiating and managing standardized best practices, and issuing
                             policy for successful compliance of unique processes.
Random Sampling              A sampling method in which each service output has an equal
                             chance of being selected for quality assurance surveillance.
Remote Surveillance          Surveillance that can be performed from remote locations,
                             using applications such as the Information Technology Asset
                             Management System for inspection and reviewing of problem
                             tickets.
Run-to-Run                   A data processing control to ensure the totals or record counts
                             for the prior computer run (i.e., processing) matches the
                             opening totals for the current computer run.



                                                                                      Page 25
                 The Modernization and Information Technology Services
             Organization’s Competitive Sourcing Program Needs Improvement




           Term                                       Definition
Standard Competition        A type of competition where an agency selects a service
                            provider based on formal offers submitted in response to an
                            agency contract solicitation. The Government submits its own
                            offer along with prospective private contractors. In a standard
                            competition, the Government organization develops what is
                            called a “most efficient organization” where the agency
                            develops the staffing plan that will form the basis for the
                            agency’s offer in the competition.
Standard Competition Form   The agency form that documents and certifies all costs
                            calculated in the standard competition.
Streamlined Competition     A type of competition where an agency determines an
                            estimated contract price for performing the work by an outside
                            contractor. The agency has a fair amount of latitude in
                            determining the estimated contract price. For example, the
                            agency may solicit proposals from prospective contractors
                            (although this is not required) or may instead conduct more
                            informal market research, including basing the estimate on
                            contractor prices from multiple award schedule contracts.
Treasury Integrated         An official automated personnel and payroll system for storing
Management Information      and tracking all employee personnel and payroll data.
System




                                                                                     Page 26
       The Modernization and Information Technology Services
   Organization’s Competitive Sourcing Program Needs Improvement



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                         Page 27
    The Modernization and Information Technology Services
Organization’s Competitive Sourcing Program Needs Improvement




                                                      Page 28
    The Modernization and Information Technology Services
Organization’s Competitive Sourcing Program Needs Improvement




                                                      Page 29
    The Modernization and Information Technology Services
Organization’s Competitive Sourcing Program Needs Improvement




                                                      Page 30
    The Modernization and Information Technology Services
Organization’s Competitive Sourcing Program Needs Improvement




                                                      Page 31
